Office of Inspector General




Independent Auditor’s Report on 2009
Financial Statements



November 6, 2009
OIG-AR-01-10




       United States International Trade Commission
 500 E Street, SW, Washington, DC 20436 : Phone 202.205.2000 : TDD 202.205.1810
                                                                                        2121 Eisenhower Ave.
                                                                                        Suite 606
                                                                                        Alexandria, VA 22314
                                                                                        Phone: 703.229.4440
                                                                                        Fax: 703.859.7603
                                 Independent Auditor’s Report                           www.castroco.com




Acting Inspector General
U.S. International Trade Commission

We were engaged to audit the accompanying balance sheet of the U.S. International Trade
Commission (ITC) as of September 30, 2009, and the related statements of net cost, changes in
net position, budgetary resources and the statement of custodial activity for the fiscal year then
ended. These financial statements are the responsibility of ITC's management. The financial
statements of ITC as of September 30, 2008, were audited by other auditors whose report, dated
November 3, 2008, expressed an unqualified opinion on those statements.

As discussed in Note 16 to the financial statements, during the current fiscal year, ITC restated
its fiscal year 2008 property, plant and equipment and related expenses reported on the financial
statements. The predecessor auditor reported on the financial statements of the prior period
before restatement of the FY 2008 financial statements. We were not engaged to audit, review or
apply any procedures to the adjustments for the correction of the error described in Note 16 and,
accordingly, we do not express an opinion or any other form of assurance about whether such
adjustments are appropriate and have been applied properly.

Several issues relating to internal control of ITC’s accounting for property, plant & equipment,
accounts payable and financial reporting were identified during our work. Furthermore, ITC’s
management was unable to respond to requests for evidential material in a timely manner. As a
result of these limitations, we were unable to obtain sufficient evidential support for the amounts
presented in the balance sheet as of September 30, 2009, the related statements of net cost,
changes in net position, budgetary resources, and the statement of custodial activity for the fiscal
year then ended.

Because of the matters discussed in the preceding paragraph, the scope of our work was not
sufficient to enable us to express, and we do not express, an opinion on the balance sheet as of
September 30, 2009, and the related statements of net cost, changes in net position, budgetary
resources, and the statement of custodial activity for the fiscal year then ended.

The information presented in the Management's Discussion and Analysis is not a required part of
ITC's financial statements, but is considered supplementary information required by U.S.
generally accepted accounting principles and the Office of Management and Budget (OMB)
Circular A-136, Financial Reporting Requirements. We were unable to apply to the information
certain procedures prescribed by professional standards within the time frames established by
OMB because of the limitations on the scope of our audit of the financial statements discussed
above. Such information has not been subjected to auditing procedures, and accordingly, we
express no opinion on it.
The information presented in the Message from the Chairman and Performance Section is
presented for purposes of additional analysis and is not required as part of the financial
statements. Such information has not been subjected to auditing procedures, and accordingly, we
express no opinion on it.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended, we have also issued our reports
dated November 6, 2009, on our consideration of ITC’s internal control over financial reporting
and on our tests of its compliance with certain provisions of laws, regulations, and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over
financial reporting and compliance and the results of that testing and not to provide an opinion
on the internal control over financial reporting or on compliance. Those reports are an integral
part of an audit performed in accordance with Government Auditing Standards and OMB
Bulletin No. 07-04, as amended, and should be considered in assessing the results of our work.




November 6, 2009
Alexandria, VA
